Supreme Court, U.S.
FILED

WAIVER

OCT 10 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court. Case No.

20-192
Karen Crump, et al.,

Mary Louise Serafine

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
111 Please enter my appearance as Counsel of Record for all respondents.
EJ There are multiple respondents, and I do not represent all respondents. Please enter myappearance as Counsel of Record for the following respondent(s):

David Puryear, Melissa Goodwin, Bob Pemberton

[I] I am a member of the Bar of the Supreme Court of the United States.
ri I am not presently a member of the Bar of this Cnurt. Should a response he requested, the response
will be filed by a Bar member.
Signature
Date.

10/01/20

(Type or print) Name

Courtney Corbello
Mr.

Firm

[1] Ms.

[I] Mrs.

ri Miss

Texas Attorney General -Law Enforcement Defense Division

Address

P.O. Box 12548 Mc-012

City & State
Phone

Digitally signed by Courtney Corbello
Date: 2020.10.01 12:02:51 -05'00'

Courtney Corbello

Austin, Texas

(512) 463-2080

Zip
Email

78711

Courtney.Corbello@oag.texas.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Mary L. Serafine

RECEIVED
OCT 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

KEN PAXTON
ATTORNEY GENERAL. OF TEXAS

October 1, 2020
Regular Mail
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: No. 20-192; Karen Louise Serafine v. Karen Crump, et al.
Dear Clerk:
Enclosed please find the following document pertaining to the above styled appeal:
Waiver form -Texas Attorney General's Office
Should a response be requested, the response will be filed by a bar member.
Thank you for your attention to this matter.
Sincerely,
/s/ Courtney Corbello
COURTNEY CORBELL
Assistant Attorney General
Law Enforcement Defense Division
(512) 463-2080 / Fax (512) 370-9374
/dmw
Enclosure

Post Office Box 12548, Austin. Texas 78711-2548 • (512) 4(33-2100 • www.texasattornevg

RECEIVED
OCT 13 2020
ncraTeov
OFFICE OF THE CLERK
SUPREME COURT U.S.

